No. 20–
–7373

IN THE

SUPREME COURT OF THE UNITED STATES

CHRISTOPHER MATHEW PAYNE,
PETITIONER,
-vsTHE STATE OF ARIZONA,
RESPONDENTS.

CERTIFICATE OF SERVICE
CAPITAL CASE
BRIEF IN OPPOSITION
MARK BRNOVICH
ATTORNEY GENERAL
BRUNN (“BEAU”) W. ROYSDEN III
SOLICITOR GENERAL
LACEY STOVER GARD
DEPUTY SOLICITOR GENERAL/CHIEF OF
CAPITAL LITIGATION
LAURA P. CHIASSON
ASSISTANT ATTORNEY GENERAL
CAPITAL LITIGATION SECTION
(COUNSEL OF RECORD)
400 W. CONGRESS, S-215
TUCSON, ARIZONA 85701
LAURA.CHIASSON@AZAG.GOV
CLDOCKET@AZAG.GOV
TELEPHONE: (520) 628-6520
ATTORNEYS FOR RESPONDENTS

CERTIFICATE OF SERVICE
Laura P. Chiasson certifies that she is a member in good standing of the
United States Supreme Court Bar. That on April 7, 2021, she caused to be
electronically filed and deposited in a FedEx envelope, shipping prepaid, Original
and 10 copies of the BRIEF IN OPPOSITION in Christopher Mathew Payne v. The

State of Arizona, to:
THE HONORABLE SCOTT S. HARRIS
United States Supreme Court
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
and caused to be emailed and deposited in a United States Post Office, first-class
postage prepaid, 1 additional copy, addressed to:
Michael J. Meehan
Law Office of Michael Meehan
3938 E. Grant Rd., No. 423
Tucson, AZ 85712
Mmeehan.az@msn.com
Laura E. Udall
Cooper & Udall
136 W. Simpson ST.
Tucson, AZ 85701
ludall@cooperudall.com
All parties required to be served have been served.
/s/ Laura P. Chiasson
Laura P. Chiasson

2

